Supreme Court, U.S.
FILED

WAIVER

JAN 1 6 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-806

Michael S. Barth

v.

Township of Bernards, New Jersey, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Somerset County [New Jersey] Board of Taxation; Robert Vance, [Somerset County, New Jersey] County Tax Administrator; John Lowe, President

of the Somerset County [New Jersey] Board of Taxation; and John and Jane Doe Commissioners of the Somerset County [New Jersey] Board of Taxation

111 I am a member of the Bar of the Supreme Court of the. United States.
I] I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member,
Signature

1(e) 2D a()

Date.
(Type or print) Name

ichelline Capistrano Foster
Mr.

Firm

j Ms.

❑ Mrs.

❑ Miss

New Jersey Attorney General's Office - Division of Law

Address

25 Market Street

City & State
Phone

Trenton, New Jersey

(609) 376-2875

Zip
Email

08625

michelline.foster@law.njoag.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Michael Barth, Pro Se; courtesy copy to Martin Allen, Esq.

StateoflVeu)tlersey
'

PHILIP D. MURPHY
Governor

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND PUBLIC SAFETY
DIVISION OF LAW

GURBIR S. GREWAL
Attorney General

SHEILA Y. OLIVER
Lt. Governor

25 MARKET STREET
PO Box 106
TRENTON, NJ 08625-0106

MICHELLE L. MILLER
Director

January 16, 2020
Via Overnight Mail
Supreme Court of United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543
Re: Michael S. Barth v. Township of Bernards,
New Jersey, et al.
Supreme Court Docket No. 19-806
Dear Clerk:
Enclosed please find the Supreme Court of the United
States Waiver from Respondents, Somerset County [New Jersey] Board
of Taxation; Robert Vance, [Somerset County, New Jersey] County
Tax Administrator, John Lowe, President of the Somerset County
[New Jersey] Board of Taxation; and John and Jane Doe Commissioners
of the Somerset County [New Jersey] Board of Taxation, in regards
to the above captioned matter.
Thank you for your attention in this regard.
RespectfUlly submitted,
GURBIR S. GREWAL
ATTORNEY GENERAL OF NEW JERSEY
By:

Michelline Cap strano Foster
Deputy Attorney General

CC: Michael S. Barth, Pro Se
Martin Allen, Esq.

RECEIVED
JAN 21 202n
2R6A1FCT85RcrLi5.RsK.

HUGHES JUSTICE COMPLEX • TELEPHONE: (609) 376-2875 • FAX: (609) 777-3055
New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

